                         U.S. Department of Agriculture

                            Office of Inspector General
                                      Southeast Region




              Audit Report

Hurricane Relief Initiative - Tree Indemnity
                 Program




                                Report No. 03601-13-At
                                           March 2008
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                              OFFICE OF INSPECTOR GENERAL

                                  Washington, D.C. 20250




March 10, 2008

REPLY TO
ATTN OF:      03601-13-At

TO:           Teresa C. Lasseter
              Administrator
              Farm Service Agency

ATTN:         T. Mike McCann
              Director
              Operations Review and Analysis Staff

FROM:         Robert W. Young /S/
              Assistant Inspector General
                for Audit

SUBJECT:      Hurricane Relief Initiative-Tree Indemnity Program


This report represents the results of our audit of the Farm Service Agency’s
implementation and management of the Hurricane Relief Initiative-Tree Indemnity
Program. Your December 14, 2007, written response to the official draft report is
included as exhibit C with excerpts and the Office of Inspector General’s (OIG) position
incorporated into the relevant sections of the report.

Based on the information in your written response, we accept management decision for
Recommendations 1, 2, 3, and 4. Please follow your internal agency procedures in
forwarding final action correspondence to the Office of the Chief Financial Officer.
Management decision has not yet been reached on Recommendation 5, which includes
the monetary results shown in exhibit A of the report. The information needed to achieve
management decision for the open recommendation is described in the OIG Position
section of the report following the recommendation.

In accordance with Departmental Regulation 1720-1, please furnish a reply within
60 days describing the corrective actions taken or planned and the timeframes for
implementation for the recommendation for which a management decision has not yet
been reached. Please note that the regulation requires a management decision to be
Teresa C. Lasseter                                                                         2



reached on all findings and recommendations within a maximum of 6 months from report
issuance, and final action to be taken within 1 year of each management decision.

We appreciate your timely response and the cooperation and assistance provided our staff
throughout the audit.
Executive Summary
Hurricane Relief Initiative - Tree Indemnity Program (Audit Report No. 03601-13-At)

Results in Brief     In 2005, the Department of Agriculture’s (USDA) Farm Service Agency
                     (FSA) made available $250 million to producers who suffered agricultural
                     losses due to Hurricanes Dennis, Katrina, Ophelia, Rita, and Wilma. FSA
                     offered assistance through five separate programs, including the Tree
                     Indemnity Program (TIP). TIP provided payments to eligible owners of
                     commercially grown fruit trees, nut trees, bushes, and vines which produce
                     an annual crop and that were lost or damaged. As of February 2007, FSA had
                     issued TIP payments totaling about $19.4 million.

                     The Office of Inspector General (OIG) initiated this audit to evaluate how
                     effectively FSA delivered TIP payments to producers, and if FSA had
                     management controls adequate to minimize or prevent improper payments
                     and fraud. Of $19.4 million in TIP payments, we reviewed $1.2 million (see
                     exhibit B).

                     We reviewed a total of 66 TIP producers’ applications, files, and payments
                     and found that FSA generally administered the program in accordance with
                     program regulations. Except as noted in this report, FSA effectively delivered
                     the program to producers based on our interviews with 40 of the TIP
                     applicants. FSA county office (CO) officials made appointments to assist
                     producers with applications to ensure they were within the signup period and
                     also notified producers of the program through newsletters and extension
                     services. Although TIP is essentially a self-certification program, FSA had
                     established controls to minimize improper payments, but those controls were
                     not adequate to ensure claimed costs from hurricane-related damages were
                     supported by documentation. Also, FSA had not implemented its spot check
                     procedures.

                     We interviewed 40 of the 66 sampled TIP producers and found that 28 of the
                     40 could not provide documentation to support the replanting, rehabilitation,
                     debris removal, and cleanup costs they claimed to have incurred due to the
                     hurricanes. CO officials informed producers during the application process
                     that they were required to document and maintain support for their expenses
                     and that this documentation would be required in the event they were selected
                     for spot check. However, CO officials did not provide producers with
                     guidance detailing what would constitute adequate documentation. Even
                     when producers had provided documentation to the CO with their requests to
                     “tier-up,” i.e., increase their payments, we noted problems. Specifically, we
                     found that two Dade County, Florida, producers included in their
                     documentation invoices dated prior to the hurricanes and/or expenses for the
                     purchase of equipment. These ineligible costs were not detected by the CO
                     because office officials did not review this documentation. The CO also had a
USDA/OIG-A/03601-13-At                                                                      Page i
                   large backlog of applications and had a program technician serving as the
                   County Executive Director for a few years in the absence of a permanent
                   director. Additionally, at the time of our audit, the FSA national office had
                   not issued any spot check procedures to review producers’ documentation for
                   TIP-related expenses. As a result, 28 producers could not support hurricane-
                   related costs for $545,230 in TIP payments.

                   Because FSA national office officials were concerned with the audit results
                   disclosing that few producers had documentation adequate to support their
                   payments during producer interviews, we provided FSA with a list of all
                   producers who were reviewed and lacked documentation so that FSA could
                   start taking corrective actions prior to the issuance of OIG’s report.

                   Our audit was conducted in conjunction with the President’s Council on
                   Integrity and Efficiency as part of its examination of the Federal
                   Government’s relief efforts in the aftermath of Hurricanes Katrina and Rita.
                   As such, a copy of the report has been forwarded to the President’s Council
                   on Integrity and Efficiency, Homeland Security Working Group, which is
                   coordinating the Inspectors General reviews of this important subject.

Recommendations
in Brief           FSA should provide producers with detailed guidance on maintaining
                   acceptable documentation for hurricane-related cleanup costs for future
                   programs. FSA should also finalize and implement spot check procedures for
                   COs to verify documentation supporting TIP payments. In addition, FSA
                   should instruct the Dade County, Florida, FSA office to provide the results of
                   its review of TIP applications and associated payments which were processed
                   prior to the Acting County Executive Director’s arrival and to seek recovery
                   of any unsupported payments. Finally, FSA should recover the $545,230 in
                   unsupported TIP payments.

Agency Response    In FSA’s December 14, 2007, written response to the draft report,        FSA
                   officials generally agreed with the report’s five recommendations. We    have
                   incorporated excerpts from FSA’s response in the Findings                 and
                   Recommendations section of this report. FSA’s entire response,           sans
                   attachments, is included as exhibit C.

OIG Position       Based on FSA’ response, we were able to reach management decision on four
                   of the report’s five recommendations. Once FSA provides additional
                   information as detailed in the OIG Position of the Findings and
                   Recommendations section of this report, we can accept management decision
                   on the other recommendation.




USDA/OIG-A/03601-13-At                                                                    Page ii
Table of Contents
Executive Summary .................................................................................................................................i

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. TIP Payments .................................................................................................................... 3

        Finding 1             Producers Could Not Always Provide Documentation to Support TIP
                              Payments ................................................................................................................. 3
                                  Recommendation 1 .......................................................................................... 6
                                  Recommendation 2 .......................................................................................... 6
                                  Recommendation 3 .......................................................................................... 7
                                  Recommendation 4 .......................................................................................... 7
                                  Recommendation 5 .......................................................................................... 8

Scope and Methodology.......................................................................................................................... 9

Exhibit A – Summary of Monetary Results ....................................................................................... 12
Exhibit B – TIP Universe and Sample Data for Counties Visited ................................................... 13
Exhibit C – Agency Response .............................................................................................................. 14




USDA/OIG-A/03601-13-At                                                                                                                        Page iii
Background and Objectives
Background                           The Department of Agriculture’s Farm Service Agency’s (FSA) Tree
                                     Indemnity Program (TIP) provided assistance to eligible producers who
                                     suffered fruit tree, including nut tree; bush; and vine losses for the
                                     commercial production of an annual fruit crop that was attributed to the 2005
                                     hurricanes of Dennis, Katrina, Ophelia, Rita, and Wilma. Funding for TIP
                                     was authorized by Section 32 of the Agricultural Adjustment Act of
                                     August 24, 1935, which allows the Secretary of Agriculture to use funds to
                                     re-establish the purchasing power of affected producers.

                                     FSA administered TIP to provide assistance to eligible producers who
                                     suffered hurricane-related losses in Alabama, Florida, Louisiana, Mississippi,
                                     North Carolina, and Texas. In order to be eligible, losses must have been
                                     located within one of the approved Presidential-declared or Secretarial-
                                     designated primary hurricane disaster counties.

                                     FSA estimated that TIP payments would total between $32.3 million and
                                     $64.6 million, with over 90 percent of the program funds going to the Florida
                                     citrus industry. As of February 13, 2007, TIP funding had amounted to nearly
                                     $19.4 million.

                                     TIP provided eligible producers with flat payments per acre to clean up,
                                     remove debris, replant, and rehabilitate eligible trees, bushes, and vines. An
                                     eligible stand 1 must have been (1) physically located in an eligible county,
                                     (2) affected by an eligible hurricane during the applicable time (disaster)
                                     period, (3) grown for commercial use for human consumption, and (4) fruit
                                     bearing. Causes of loss considered directly related to hurricanes included
                                     excessive moisture, precipitation, flood, excessive wind, cyclone, tornado,
                                     storm surge, salinity due to salt water intrusion, and hurricane/tropical
                                     depression. The disaster period was 60 calendar days from the incident date
                                     as recorded on the disaster declaration. FSA based payments on the stand’s
                                     proximity to differing bands of hurricane severity and established four tiers to
                                     represent the severity levels, using the maximum sustained wind speeds
                                     recorded by the United States weather service stations located in the affected
                                     areas.

                                     To calculate TIP payments, FSA multiplied the applicable tier’s payment rate
                                     by the number of eligible acres in a stand of fruit trees, bushes, or vines, and
                                     by the producer’s share in the crop. The following are payment rates per acre
                                     for each tier.


1
 A stand is contiguous acreage of the same crop of field grown trees, bushes, or vines used for commercial production of an annual fruit crop for human
consumption, and excludes container-grown crops.

USDA/OIG-AUDIT/03601-13-At                                                                                                                      Page 1
                                                              Tier       Payment Rate Per Acre
                                                                 I                $750
                                                                II                $300
                                                               III                $200
                                                               IV                  $90

                                   Producers certified to the tier that corresponded to their level of loss. If an
                                   applicant’s actual expenses exceeded the value associated with the tier based
                                   on the stand’s location, the applicant could request that the stand be placed in
                                   the next lower-numbered tier to receive a higher payment rate (this was
                                   known as a request to “tier-up”). In order to tier-up, the producer had to
                                   provide acceptable documentation of the costs for cleanup, debris removal,
                                   rehabilitation, or replanting, and show that the costs were equal to or greater
                                   than the next tier level. 2 The documentation supporting the request was to be
                                   reviewed and approved by the applicable FSA county committee (COC).
                                   Regardless of expenses or damage, producers were allowed to tier-up only
                                   one level.

                                   FSA National Notice DAP-241, “2005 Section 32 Hurricane Provisions for
                                   the Hurricane Indemnity Program (HIP) and Tree Indemnity Program (TIP),”
                                   dated April 14, 2006, authorizes the implementation of and provides policy
                                   and procedures for TIP. 3 Signup for TIP began May 17, 2006, and ended on
                                   September 29, 2006. Each Form FSA-573, “2005 Hurricane Disaster
                                   Programs Application” (Part E of which was specific to TIP), was filed in the
                                   FSA county office (CO) where the loss occurred, using FSA’s automated
                                   system. Producers signed their TIP applications certifying that their crop loss
                                   was due to an eligible hurricane, in an eligible county, and during the
                                   applicable disaster period. On the TIP application, producers also identified
                                   the geographic location, producer share, and number of acres in the disaster
                                   affected stand of claimed fruit trees, bushes, or vines. Producers could
                                   receive a maximum of $80,000 under TIP.

Objectives                         The objective of our review was to evaluate how FSA officials administered
                                   TIP. Specifically, we evaluated how effectively FSA delivered the program,
                                   as well as the adequacy of FSA’s management controls to prevent and
                                   minimize improper payments and fraud.




2
  Acceptable documentation included purchase records, bank or other loan papers, Federal Emergency Management Agency and National Guard records,
Internal Revenue Service records, property tax records, photographs of specific disaster damage, and private insurance documentation.
3
  Notice DAP- 241 policy and procedure was later incorporated into FSA Handbook 5-DAP (Revision 1), “Crop Disaster Program,” by Amendment 10,
dated June 2, 2006.

USDA/OIG-AUDIT/03601-13-At                                                                                                              Page 2
Findings and Recommendations
Section 1. TIP Payments



Finding 1           Producers Could Not Always Provide Documentation to Support
                    TIP Payments

                    Of the 40 TIP applicants interviewed, we found that 28 producers could not
                    provide documentation to support the replanting, rehabilitation, debris
                    removal, or cleanup costs they claimed to have incurred due to the
                    hurricanes. Even though CO officials informed producers during the
                    application process that they were required to document and maintain
                    support for their expenses, FSA did not provide producers with guidance
                    detailing what would constitute adequate documentation. Without this
                    documentation, these 28 producers could not support their claimed costs or
                    incurred expenses for TIP payments totaling $545,230.

                    In order to serve hurricane victims expeditiously, the Office of Management
                    and Budget stated that Federal agencies should have procedures in place to
                    speed the delivery of needed assistance while ensuring that Federal benefits
                    go only to individuals who need and qualify for assistance. To that end,
                    agencies should allow applicants to self-certify that the information they
                    provide is accurate, but take steps to verify this information afterwards. Such
                    steps include increasing post-payment reviews and audit activities.

                    FSA’s TIP allowed producers to self-certify that they suffered hurricane-
                    related damage to fruit trees, bushes, and vines. The program divided the
                    affected area into four “tiers,” which correlate to different levels of damage
                    resulting from the hurricanes. Producers who agreed with their tier
                    designation could self-certify the damage they suffered; producers who had
                    suffered more damage than was generally the case in their tier could request
                    to tier-up, but were required to provide acceptable documentation for
                    claimed expenses and show that the costs are equal to or greater than the
                    next tier level.

                    If producers self-certified, they signed an application stating (1) that the
                    information they provided was true and correct; (2) that they agreed to
                    provide documentation to FSA that supports that the loss was caused by
                    eligible hurricanes; and (3) that their costs for replanting, rehabilitation,
                    debris removal, and cleanup are equal to or greater than their payment.
                    Producers were not required at application to submit documentation of these
                    costs, but FSA national office officials stated producers are required to
                    maintain such documentation and to provide it if FSA requests. By signing
                    the application, producers certify that they are authorizing FSA to review,

USDA/OIG-AUDIT/03601-13-At                                                                  Page 3
                                       verify, and authenticate all information provided on the application and
                                       supporting documents.

                                       If producers requested to tier-up, they were required to submit evidence
                                       demonstrating incurred expenses or estimated costs for replanting,
                                       rehabilitation, cleanup, and debris removal were at least equal to the
                                       payment rate per acre for the next lower-numbered tier. This evidence must
                                       be reviewed and approved by the COC and maintained in the producer’s file.

                                       We found, however, that 28 of the 40 TIP applicants we visited could not
                                       produce adequate documentation to support payments for expenses totaling
                                       $545,230—27 of these 28 producers did not request to tier-up when they
                                       applied and so were not required to, and did not, provide documentation at
                                       application. The 28th producer did request to tier-up, and provided
                                       documentation at the time of application. We found, however, that this
                                       producer claimed ineligible expenses which resulted in a $7,200 TIP
                                       overpayment.

                                       Six of the 27 producers who did not request to tier-up were small operators
                                       (under 110 acres) and explained that they had no documentation because
                                       they performed the work themselves. Four of the 27 producers were large
                                       operators (over 600 acres) who completed the work with their own
                                       equipment and labor, but did not track the portion of payroll expenses
                                       applicable to TIP work. Of the remaining 17 producers without adequate
                                       documentation: twelve stated that TIP work had not begun or was ongoing
                                       and they had not yet (1) purchased the (replacement) trees because the trees
                                       were unavailable or (2) rented the equipment needed to finish the work4 ; two
                                       producers estimated their costs; two producers said they could have
                                       requested a higher payment rate (tiered-up), but chose not to in order to
                                       avoid the additional paperwork when applying for TIP; and one producer
                                       could not locate any documentation.

                                       Early in the audit, we discussed with FSA national office officials our
                                       preliminary finding that producers could not support with documentation
                                       their claimed tier levels. The officials were concerned that 28 of the
                                       40 interviewed producers did not have adequate documentation to support
                                       their expenses and confirmed that all producers should maintain
                                       documentation of their costs (regardless of whether the producers request to
                                       tier-up). Officials explained that FSA could request and review such support
                                       during subsequent spot checks. At the time of our audit, however, no spot
                                       check procedures had been issued. Before performing spot checks, FSA
                                       plans to notify producers that CO officials will be conducting these reviews
                                       and that they will be asking for documentation for TIP-related expenses.

4
  Producers were not required to replant, rehabilitate, remove debris, or cleanup to receive TIP benefits. Their stands, however, must have incurred damage
that would require replanting, rehabilitation, debris removal, and cleanup in an amount at least equal to the TIP payment per acre for the claimed tier.

USDA/OIG-AUDIT/03601-13-At                                                                                                                       Page 4
                                       We also noted problems with documentation submitted by two producers in
                                       Dade County, Florida, to support their requests to tier-up. The first Dade
                                       County producer included in his expenses a $1,350 down payment he made
                                       on a tractor. FSA national office officials explained that, although producers
                                       could claim the rental of such equipment as an allowable expense, the
                                       program was not intended to help producers purchase equipment, and
                                       therefore, the producer’s down payment on the tractor was not an allowable
                                       expense. However, after the payment for the tractor was deducted, this
                                       producer still met his requested Tier I level and thus, we have not included
                                       him in the 28 producers whose payments we questioned.

                                       The second Dade County producer included as part of his documentation for
                                       his request to tier-up the purchase of a wood chipper, as well as several
                                       invoices dated prior to the hurricane. Although the CO accepted such
                                       documentation, FSA national office officials determined such costs are not
                                       allowable TIP expenses. After the costs of the ineligible expenses were
                                       deducted, the second Dade County producer did not meet the requirements
                                       to tier-up to Tier I. We have therefore included $7,200 this producer was
                                       paid in excess of the Tier II level as part of $545,230 in unsupported TIP
                                       payments.

                                       When we asked officials at the Dade County FSA office why they had
                                       allowed these ineligible expenses, they explained that they had not reviewed
                                       producers’ documentation prior to issuing their payments. They stated that
                                       the CO had a large backlog of applications and had a program technician
                                       serving as the County Executive Director (CED) for a few years in the
                                       absence of a permanent director. Under these circumstances, the CO
                                       neglected this review. During signup for TIP, FSA appointed an acting CED,
                                       who stated that he planned to review all TIP payments processed prior to his
                                       arrival to verify the documentation producers submitted as part of their
                                       requests to be placed in higher tiers.

                                       During the audit, we provided the FSA national office with a list of all
                                       sampled producers who lacked documentation so that FSA could start taking
                                       corrective actions prior to the issuance of OIG’s report.

                                       We also noted that the language of the TIP certification on the Form
                                       FSA-573, “2005 Hurricane Disaster Programs Application,” was not
                                       consistent with FSA policy and procedure. Specifically, FSA directives state
                                       that “[p]roducers are not required to replant, rehabilitate, remove debris, or
                                       cleanup to receive TIP benefits.” 5 However, the certification that producers
                                       are required to sign when submitting the application states that “such losses
                                       for commercial trees, bushes, and vines were wholly due to eligible
                                       hurricanes and incurred expenses [emphasis added] to the stand including

5
    FSA Handbook 5-DAP (Rev.1), subparagraph 731-A, dated June 2, 2006. Emphasis in original.

USDA/OIG-AUDIT/03601-13-At                                                                                    Page 5
                   replanting, rehabilitation, cleanup, and debris removal were in an amount
                   equal to or greater than the payment per acre for the certified tier.”

                   We concluded that FSA needs to take steps to improve how it verifies
                   producers’ documentation for their TIP payments, including providing
                   producers with guidance concerning acceptable documentation whether or
                   not they submit that documentation at the time of application. FSA also
                   needs to expedite implementation of its procedures for performing spot
                   checks on producers who receive these payments.

Recommendation 1

                   For future programs, ensure applications clearly require that producers
                   maintain adequate documentation, as defined by FSA, of expenses incurred
                   or cost estimates that correspond to the payment levels (tiers) to which the
                   producers certify.

                   Agency Response. In its December 14, 2007, response, the agency
                   stated:

                      *        *        *        *        *        *        *        *

                      FSA will ensure that future program applications, regulations,
                      and handbook procedure clearly define that producers are
                      required to maintain verifiable documentation of all cost
                      components to support their loss.

                   OIG Position.

                   We accept management decision for this recommendation.

Recommendation 2

                   For future programs, ensure that program requirements relating to the
                   completion of practices, i.e., replanting, rehabilitation, debris removal, and
                   cleanup, consistently and clearly are stated in policy and procedures and on
                   the program application.

                   Agency Response. In its December 14, 2007, response, the agency
                   stated:

                      * * * FSA will ensure that regulations and handbook procedure
                      clearly define program requirements relating to the completion of
                      practices.



USDA/OIG-AUDIT/03601-13-At                                                                Page 6
                   OIG Position.

                   We accept management decision for this recommendation.

Recommendation 3

                   Finalize and implement spot check procedures for COs to verify
                   documentation supporting TIP payments.

                   Agency Response. In its December 14, 2007, response, the agency
                   stated:

                      The FSA National Office will issue a directive by December 15,
                      [2007,] providing State and county offices spot check criteria
                      guidelines in reviewing producer applications and documentation
                      for TIP-related expenses.

                   OIG Position.

                   We accept management decision for this recommendation.

Recommendation 4

                   Instruct the Dade County, Florida, FSA office to provide to the national
                   office the results of the CO’s review of TIP applications and associated
                   payments which were processed prior to the Acting CED’s arrival and to
                   seek recovery of any unsupported payments.

                   Agency Response. In its December 14, 2007, response, the agency
                   stated:

                      The National Office instructed the Florida State FSA Office to
                      have the Dade County FSA Office provide the results of the
                      county office’s review of the TIP applications and associated
                      payments processed prior to the acting CED’s arrival, and to seek
                      recovery of any unsupported payments.

                      On November 7, 2007, [the National Office] received
                      confirmation that the Florida State FSA Office completed the
                      review of all the TIP applications that were approved prior to the
                      acting CED’s arrival. The findings were mailed back to the
                      county office with instructions to the COC to review the
                      applications to determine if the listed expenses could be
                      substantiated either by verifiable documentation or by a “third
                      party,” and to seek recovery of any unsupported payments.

USDA/OIG-AUDIT/03601-13-At                                                                 Page 7
                   The Miami/Dade County FSA Committee meeting minutes of November 20,
                   2007, show the COC reviewed 25 TIP applications and supporting
                   documentation. Of the 25 applications reviewed, it was determined that three
                   of the applicants were overpaid, and debt collection notification letters will
                   be mailed to seek recovery of the unsupported payments.

                   OIG Position.

                   We accept management decision for this recommendation.

Recommendation 5

                   Recover $545,230 in unsupported TIP payments.

                   FSA Response. In its December 14, 2007, response, the agency stated:

                   For the producers identified by the audit as lacking documentation to support
                   their TIP payments, FSA provided copies of letters sent by FSA to the
                   producers requesting documentation of incurred costs or cost estimates, and
                   copies of the documentation provided by the producers to FSA.

                   The Alabama State FSA Office submitted copies of the COC minutes from
                   the Baldwin, Escambia, and Mobile County, Alabama, FSA Offices
                   verifying that the cost rates used by the producers to support their TIP
                   applications were reasonable and customary to their respective counties.
                   They further stated that the rates were similar to the rates used for the Tree
                   Assistance Program and the Emergency Conservation Program.

                   The Florida Indian River/St. Lucie COC was to meet on December 6, 2007,
                   to review the applicable TIP applications. They were instructed to provide
                   the results of the review to the National Office no later than December 30,
                   2007, and to seek recovery of any unsupported payments. See FSA’s
                   response to Recommendation 4 for the results of the Miami/Dade COC
                   review.

                   The Alabama and Florida State FSA Offices will be instructed to ensure debt
                   collection measures, where applicable, were initiated.

                   OIG Position.

                   We did not accept management decision for this recommendation. In order
                   to achieve management decision, FSA needs to complete its review of the
                   applicable TIP applications and provide copies of the bills for collection for
                   amounts owed to the Government, and support that the amounts have been
                   entered as receivables on the agency's accounting records.

USDA/OIG-AUDIT/03601-13-At                                                                Page 8
           Scope and Methodology
                                       The audit originally covered fiscal year 2005 Section 32 Disaster Payments
                                       under both TIP and FSA’s Hurricane Indemnity Program (HIP). 6 In
                                       consideration of the availability of staff, and to be more cost-effective and
                                       better ensure the prudent use of resources, we had assigned the same staff to
                                       audit both HIP and TIP and determined to cover both programs at the same
                                       audit sites under a single audit number. After we selected our sample(s) and
                                       began fieldwork, we determined we needed to expand our review of HIP to
                                       include a review of the integrity and reliability of crop insurance indemnity
                                       payment data provided by the Risk Management Agency (RMA) to FSA for
                                       HIP purposes. We completed our review of TIP using the original sample.
                                       To facilitate reporting and corrective action on the different issues identified
                                       for TIP and for HIP, we determined to report to FSA on TIP under the
                                       original audit number (03601-13-At) and to report to FSA and RMA on HIP,
                                       including our expanded coverage of the RMA data, under audit number
                                       50601-15-At.

                                       This report covers our review of TIP. Our review was conducted at the FSA
                                       national office in Washington D.C., two State offices, and six COs (see
                                       exhibit B). We conducted our fieldwork from August 2006 through
                                       May 2007.

                                       We judgmentally selected FSA State offices and COs for review based on
                                       data provided to us on the allocations and payments made under HIP and
                                       TIP. We selected Florida because it received the highest allocation for both
                                       HIP and TIP funding and issued the majority of the payments to producers.
                                       In addition, the national office suggested visiting Florida. Alabama was
                                       selected because it had the second highest HIP allocation, and because
                                       Alabama had several counties that issued a number of both HIP and TIP
                                       payments.

                                       In Florida, we selected the Dade, St. Lucie, and Indian River COs for review
                                       based on the numbers of applications, dollar values, and numbers of requests
                                       for tier level changes in these offices. These COs were also suggested by the
                                       national office. In addition, to ensure that we reviewed both HIP and TIP, we
                                       chose counties that made both types of payments. These three counties
                                       included three TIP tier levels in Florida.




6
 HIP provided funds to eligible agricultural producers who suffered 2005 or 2006 crop losses attributable, in whole or in part, to 2005 Hurricanes Dennis,
Katrina, Ophelia, Rita, and Wilma. Generally, HIP payments were calculated to be 30 percent of the producer's USDA Risk Management Agency Federal
Crop Insurance Corporation indemnity payment or FSA Noninsured Crop Disaster Assistance Program payment for eligible crop losses.

USDA/OIG-AUDIT/03601-13-At                                                                                                                       Page 9
                                      In Alabama, we selected the Baldwin, Escambia, and Mobile COs for review
                                      based on the number of applications and dollar values. 7 In addition, to
                                      ensure that we reviewed both HIP and TIP payments, we selected three of
                                      the top four counties with TIP payments (Baldwin, Escambia, and Mobile).
                                      The selection of these three counties covered all four tier levels in Alabama.

                                      Our selection of applications/files to review in each CO consisted of
                                      required, judgmental, and random samples. The required sample included
                                      FSA State and county committee members and any FSA employees. We did
                                      not find any deficiencies in our required sample, which consisted of three
                                      TIP producers who were COC members. We judgmentally selected up to
                                      five TIP applications in each CO using the following criteria:
                                      (1) Applications at or near the $80,000 payment limitation; (2) multi-county
                                      producers; (3) producers spot checked by the county office; and
                                      (4) producers who received both a HIP and TIP payment. The random
                                      sample was performed using a random number generator. Additionally, in
                                      Dade County, Florida, we expanded the sample because the CO was under a
                                      funding freeze. FSA had detailed an Acting CED to ensure that programs
                                      were being administered in accordance with regulations. This resulted in
                                      numerous applications being left unpaid and waiting for the release of funds.
                                      We therefore expanded our TIP samples to include unpaid applications along
                                      with the paid applications. In total, we reviewed 66 TIP applications, files,
                                      and payments and interviewed 40 applicants (see exhibit B).

                                      To accomplish the audit objectives relative to TIP, we performed the
                                      following audit procedures:

                                      •    We reviewed applicable laws, regulations, and FSA guidance concerning
                                           TIP.

                                      •    We interviewed national office officials in the Production, Emergencies,
                                           and Compliance Division and Operations Review and Analysis Staff to
                                           determine the national office’s role in administering, monitoring, and
                                           reviewing TIP.

                                      •    We obtained data regarding the number of applicants and funding
                                           allocations to States administering the program.

                                      •    We interviewed State office officials to determine the State office’s role
                                           in funding and monitoring the COs’ administration of TIP.




7
  We also selected Houston County because it had the highest HIP participation in the State, but it made no TIP payments. Thus, our work in Houston
County was not applicable to our review of TIP.

USDA/OIG-AUDIT/03601-13-At                                                                                                                  Page 10
                   •   We interviewed CO officials to obtain an understanding of the
                       administration of TIP at the county level and to ensure that officials
                       followed established procedures.

                   •   We reviewed COC meeting minutes to assess the reasonableness of the
                       committee’s actions.

                   •   We reviewed each CO’s pending payment, nonpayment, and
                       overpayment registers to ensure their accuracy.

                   •   We reviewed TIP applications to ensure that producers met eligibility
                       requirements and that supporting documentation was complete.

                   •   We interviewed producers to verify loss information and evaluate
                       program delivery.

                   We conducted this performance audit in accordance with generally accepted
                   government auditing standards. Those standards require that we plan and
                   perform the audit to obtain sufficient, appropriate evidence to provide a
                   reasonable basis for our findings and conclusions based on our audit
                   objectives. We believe that the evidence obtained provides a reasonable
                   basis for our findings and conclusions based on our audit objectives.




USDA/OIG-AUDIT/03601-13-At                                                           Page 11
Exhibit A – Summary of Monetary Results
                                                                           Exhibit A – Page 1 of 1



Finding
  No.   Recommendation            Description               Amount     Monetary Category
                         Producers Were Unable to Provide
                         Adequate Documentation of
                                                                        Unsupported Costs,
                         Expenses Incurred or Cost
   1           5                                            $545,230        Recovery
                         Estimates that Correspond to the
                                                                         Recommended
                         TIP Payment Levels (Tiers) to
                         Which the Producers Certified




USDA/OIG-AUDIT/03601-13-At                                                              Page 12
Exhibit B – TIP Universe and Sample Data for Counties Visited                                                               8

                                                                                                                            Exhibit B – Page 1 of 1



                                             BALDWIN COUNTY                               NO.               PAYMENTS
                                         Applications                                      9                      $68,976
                                         File Reviews                                      9                      $68,976
                                         Interviews                                        9                      $68,976
                                         Exceptions                                        9                      $68,976
                                            ESCAMBIA COUNTY                               NO.               PAYMENTS
                                         Applications 10                                   7                      $14,120
                  ALABAMA 9              File Reviews                                      7                      $14,120
                                         Interviews                                        6                      $11,660
                                         Exceptions                                        4                       $8,660
                                              MOBILE COUNTY                               NO.               PAYMENTS
                                         Applications                                     12                    $118,410
                                         File Reviews                                     10                      $99,230
                                         Interviews                                        9                      $85,030
                                         Exceptions                                        8                      $79,710
                                               DADE COUNTY                                NO.               PAYMENTS
                                         Applications                                     30                    $234,316
                                         File Reviews 12                                  20                    $233,868
                                         Interviews                                        5                      $58,065
                                         Exceptions                                        1                       $7,200
                                          INDIAN RIVER COUNTY                             NO.               PAYMENTS
                                         Applications                                      92                  $1,255,355
                   FLORIDA 11            File Reviews                                     10                    $376,231
                                         Interviews                                        5                    $291,647
                                         Exceptions                                        3                    $140,684
                                             ST. LUCIE COUNTY                             NO.               PAYMENTS
                                         Applications                                     125                  $1,915,715
                                         File Reviews                                     10                    $451,680
                                         Interviews                                        6                    $417,000
                                         Exceptions                                        3                    $240,000
                                              REVIEW TOTALS                               NO.               PAYMENTS
                                         Applications                                     275                  $3,606,892
                      TOTAL              File Reviews                                     66                   $1,244,105
                                         Interviews                                       40                    $932,378
                                         Exceptions                                       28                    $545,230

8
  The file reviews represent the number of producer’s files sampled and reviewed; the interviews represent the number of sampled producers interviewed,
and the exceptions represent the number of producers interviewed who could not support their claimed level of damage with documentation.
9
  Application data are as of August 21, 2006, except as noted.
10
   Data are as of September 14, 2006.
11
   Application data are as of October 3, 2006.
12
   Both paid and unpaid files were reviewed in the CO as noted in the Scope and Methodology.

USDA/OIG-AUDIT/03601-13-At                                                                                                                   Page 13
Exhibit C – Agency Response
                              Exhibit C – Page 1 of 4




USDA/OIG-AUDIT/03601-13-At                 Page 14
Exhibit C – Agency Response
                              Exhibit C – Page 2 of 4




USDA/OIG-AUDIT/03601-13-At                 Page 15
Exhibit C – Agency Response
                              Exhibit C – Page 3 of 4




USDA/OIG-AUDIT/03601-13-At                 Page 16
Exhibit C – Agency Response
                              Exhibit C – Page 4 of 4




USDA/OIG-AUDIT/03601-13-At                 Page 17
Informational copies of this report have been distributed to:

Administrator, FSA, ATTN: Agency Liaison Officer (10)
General Accountability Office (1)
Office of Management and Budget (1)
Office of the Chief Financial Officer (1)
       Director, Planning and Accountability Division
